No. 20-1650
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CARLOS CONCEPCION, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 25th day of August, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,310
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 25, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 25, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1650
CONCEPCION, CARLOS
USA
LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
J. MARTIN RICHEY
FEDERAL DEFENDER OFFICE
51 SLEEPER STREET
5TH FLOOR
BOSTON, MA 02210
617-223-8061

VIA EMAIL

